                      DEPARTMENT OF HEALTH AND HUMAN SERVICES
                                      OFFICE OF AUDIT SERVICES 

                                     233 NORTH MICHIGAN AVENUE 
                                REGION V
                                                                                                 OFFICE OF
                                       CHICAGO, ILLINOIS 60601
                                                                                            INSPECTOR GENERAL


                                          August 18, 2009


Report Number: A-05-09-00052

Ms. Sandy Miller
President
National Government Services
8115 Knue Road
Indianapolis, Indiana 46250

Dear Ms. Miller:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled "Review of Ox ali platin Claims Processed by National
Government Services for Calendar Years 2004 and 2005." We will forward a copy of this report
to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Jaime Saucedo, Audit Manager, at (312) 353-8693 or through email at
Jaime.Saucedo@oig.hhs. gov. Please refer to report number A-05-09-00052 in all
correspondence.

                                               Sincerely,



                                                       afson
                                              Regiona Inspector General
                                               for Audit Services


Enclosure
Page 2 - Ms. Sandy Miller


cc:

Ms. Sarah Litteral
Director, Part A/RHHI Claims
National Government Services
9901 Linn Station Road
Louisville, Kentucky 40223

Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services 

             OFFICE OF 

        INSPECTOR GENERAL 





   REVIEW OF OXALIPLATIN 

    CLAIlVIS PROCESSED BY 

   NATIONAL GOVERNMENT 

SERVICES FOR CALENDAR YEARS 

        2004 AND 2005 





                    Daniel R. Levinson 

                     Inspector General 


                       August 2009 

                      A-05-09-00052 

                     Office ofInspector General
                                      http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office of Investigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices 



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services, which administers the program,
contracts with fiscal intermediaries to process and pay Medicare Part B claims submitted by
hospital outpatient departments. Medicare uses an outpatient prospective payment system to pay
for hospital outpatient services.

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. During our audit period
(calendar years (CY) 2004 and 2005), Medicare required hospital outpatient departments to bill
one service unit for every 5 milligrams of oxaliplatin administered. Before July 2003, Medicare
required billing one service unit for every 0.5 milligrams administered.

During our audit period, United Government Services was the fiscal intermediary for Michigan
and Wisconsin, and Administar was the fiscal intermediary for Illinois, Indiana and Ohio. In
2007, National Government Services assumed the business operations of United Government
Services and Administar. Therefore, this report refers to the two former fiscal intermediaries as
“National Government Services.”

We reviewed 33 paid claims totaling $701,729 that National Government Services made to 19
hospitals in Illinois, Indiana, Michigan, Ohio and Wisconsin. Each of these hospitals had less
than 5 claims and each of the payments amounted to less than $50,000 for more than 100 units of
oxaliplatin.

OBJECTIVE

Our objective was to determine, for selected paid claims, whether hospitals billed National
Government Services for the correct number of service units of oxaliplatin.

SUMMARY OF FINDING

For 28 of 33 paid claims reviewed, 19 hospitals billed National Government Services for the
incorrect number of service units of oxaliplatin. For four paid claims, a provider originally did
not bill for oxaliplatin. The remaining paid claim was billed correctly. As a result, the hospitals
received overpayments totaling $624,779 during CYs 2004 and 2005. These overpayments
occurred primarily because the hospitals reported the number of service units using the incorrect
0.5 milligrams measurement instead of the correct 5 milligrams measurement to bill oxaliplatin.

RECOMMENDATION

We recommend that National Government Services recover the $624,779 in overpayments from
the hospitals.




                                                 i
NATIONAL GOVERNMENT SERVICES COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, National Government Services said that it recouped the
outstanding overpayments totaling $624,779 from the hospitals. National Government Services’
comments are included in their entirety as the Appendix.

Based on National Government Services’ written comments, we revised our report accordingly.




                                               ii
                                                  TABLE OF CONTENTS 


                                                                                                                                     Page

INTRODUCTION........................................................................................................................1 


          BACKGROUND ...............................................................................................................1 

              Medicare Fiscal Intermediaries..............................................................................1 

              Outpatient Prospective Payment System ...............................................................1 

              Oxaliplatin..............................................................................................................1 

              National Government Services ..............................................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................2 

               Objective ................................................................................................................2 

               Scope......................................................................................................................2 

               Methodology ..........................................................................................................2 


FINDING AND RECOMMENDATION...................................................................................3 


          MEDICARE REQUIREMENTS.......................................................................................3 


          INCORRECT NUMBER OF SERVICE UNITS BILLED ...............................................4 


          RECOMMENDATION .....................................................................................................4 


          NATIONAL GOVERNMENT SERVICES COMMENTS AND OFFICE OF 

          INSPECTOR GENERAL RESPONSE .............................................................................4 


APPENDIX

          NATIONAL GOVERNMENT SERVICES COMMENTS




                                                                    iii
                                            INTRODUCTION 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare
Part B claims submitted by hospital outpatient departments. The intermediaries’ responsibilities
include determining reimbursement amounts, conducting reviews and audits, and safeguarding
against fraud and abuse.1

Outpatient Prospective Payment System

Pursuant to the Balanced Budget Act of 1997, P.L. No. 105-33 § 4523, Social Security Act, 

§ 1833, 42 U.S.C. § 1395l, CMS implemented an outpatient prospective payment system (OPPS) 

for hospital outpatient services. The OPPS applies to services furnished on or after     

August 1, 2000. 


Under the OPPS, Medicare pays for services on a rate-per-service basis using the ambulatory 

payment classification group to which each service is assigned. The OPPS uses the Healthcare 

Common Procedure Coding System (HCPCS) to identify and group services into an ambulatory 

payment classification group. 


Oxaliplatin

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. During our audit period
(calendar years (CY) 2004 and 2005), Medicare required hospital outpatient departments to bill
one service unit for every 5 milligrams of oxaliplatin administered. Before July 1, 2003,
Medicare required billing one service unit for every 0.5 milligrams administered.

National Government Services

During our audit period, United Government Services was the fiscal intermediary for Michigan
and Wisconsin, and Administar was the fiscal intermediary for Illinois, Indiana and Ohio.
During that period, the two fiscal intermediaries made a total of 7,200 payments less than
$50,000 each to hospitals in the five States for oxaliplatin.




1
 Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173
§ 911, Social Security Act, § 1842, 42 U.S.C. § 1395u, requires CMS to transfer the functions of fiscal
intermediaries to Medicare administrative contractors by October 2011.


                                                      1

In January 2007, National Government Services assumed the business operations of United
Government Services and Administar. Therefore, this report refers to the two former fiscal
intermediaries for the five States as “National Government Services.”

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine, for selected paid claims, whether hospitals billed National
Government Services for the correct number of service units of oxaliplatin.

Scope

We reviewed 33 paid claims and the resulting 33 payments totaling $701,729 that National
Government Services made to 19 hospitals for oxaliplatin during CYs 2004 and 2005.2 Each of
these hospitals had less than 5 claims and each of the payments amounted to less than $50,000.3

We did not review National Government Services’ internal controls applicable to the 33 paid
claims because our objective did not require an understanding of controls over the submission
and processing of claims. Our review allowed us to establish reasonable assurance of the
authenticity and accuracy of the data obtained from the National Claims History file, but we did
not assess the completeness of the file.

We conducted fieldwork from February through May 2009. Our fieldwork included contacting
National Government Services, located in Cincinnati, Ohio, and the 19 hospitals that received the
33 payments.

Methodology

To accomplish our objective, we:

    	 reviewed applicable Medicare laws, regulations, and guidance;

    	 used CMS’s National Claims History file to identify 7,200 Medicare paid claims with
       payments less than $50,000 each made to hospitals in Illinois, Indiana, Michigan, Ohio
       and Wisconsin for oxaliplatin during CYs 2004 and 2005;




2
 Of the 33 paid claims reviewed, we initially reviewed 25 claims totaling $544,711. One hospital completed an
internal audit of all its claims for oxaliplatin and reviewed eight additional paid claims totaling $157,018.
3
 We limited our review to payments less than $50,000 because we previously reviewed paid claims of $50,000 or
more (report numbers A-05-07-00066, issued in March 2008, and A-05-07-00065, issued in September 2007). In
addition, we limited our review to paid claims to hospitals with less than five claims because we previously
reviewed paid claims to hospitals with five or more claims (report number A-05-09-00010, issued in May 2009).



                                                        2

    	 selected for review 33 paid claims with payments greater than $2,000 each made to
       hospitals with less than five claims for more than 100 units of oxaliplatin; 4

    	 contacted the 19 hospitals that received the 33 payments to determine whether the service
       units were billed correctly and, if not, why the service units were billed incorrectly; and

    	 confirmed with National Government Services that overpayments occurred and refunds
       were appropriate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                                  FINDING AND RECOMMENDATION

For 28 of 33 paid claims reviewed, 19 hospitals billed National Government Services for the
incorrect number of service units of oxaliplatin. For four paid claims, a provider originally did
not bill for oxaliplatin.5 The remaining paid claim was billed correctly. As a result, the hospitals
received overpayments totaling $624,779 during CYs 2004 and 2005. These overpayments
occurred primarily because the hospitals reported the number of service units using the incorrect
0.5 milligrams measurement instead of the correct 5 milligrams measurement to bill oxaliplatin.

MEDICARE REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes. CMS’s “Medicare Claims
Processing Manual,” Pub. No. 100-04, chapter 4, section 20.4, states: “The definition of service
units . . . is the number of times the service or procedure being reported was performed.” In
addition, chapter 1, section 80.3.2.2, of this manual states: “In order to be processed correctly
and promptly, a bill must be completed accurately.”

For outpatient services furnished before July 1, 2003, CMS instructed hospitals to bill for
oxaliplatin using HCPCS code J3490. The service unit for that code was 0.5 milligrams.

Through CMS Transmittal A-03-051, Change Request 2771, dated June 13, 2003, CMS
instructed hospital outpatient departments to bill for oxaliplatin using HCPCS code C9205 for



4
 For materiality purposes, we excluded payments of $2,000 or less and payments for claims with 100 or fewer units
of oxaliplatin.
5
 Through its internal audit, the provider determined that it inadvertently did not bill for oxaliplatin on four original
claim submissions and subsequently submitted new claims for the oxaliplatin services previously omitted.



                                                            3

services furnished on or after July 1, 2003.6 The description for HCPCS code C9205 was
“Injection, oxaliplatin, per 5 mg.” Therefore, for every 5 milligrams of oxaliplatin administered
to a patient, hospital outpatient departments should have billed Medicare for one service unit
during our audit period.7

INCORRECT NUMBER OF SERVICE UNITS BILLED

During CYs 2004 and 2005, the 19 hospitals billed National Government Services for the
incorrect number of service units on 28 of 33 claims reviewed and, as a result, received
overpayments totaling $624,779. These overpayments occurred primarily because the hospitals
reported the number of services units using the 0.5 milligrams associated with the HCPCS codes
J3490 and J9263 instead of the 5 milligrams for the C9205 code to bill for oxaliplatin. The
following examples illustrate the incorrect units of service:

    	 A hospital billed for 200 units each for three oxaliplatin claims when the beneficiary only
       received 20 units. The hospital converted the oxaliplatin dosage to the number of service
       units using 0.5 milligrams instead of 5 milligrams. As a result, National Government
       Services paid the hospital $48,216 when it should have paid $4,223, a $43,993
       overpayment.

    	 A hospital billed for 400 units of oxaliplatin on a claim when the patient only received 40
       units. The hospital billed 400 units using HCPCS code J9263 before the code was in
       effect. During the billing process, the hospital’s billing system automatically changed the
       HCPCS code to C9205, resulting in an overcharge. As a result, National Government
       Services paid the hospital $32,296 when it should have paid $2,815, a $29,481
       overpayment.

RECOMMENDATION

We recommend that National Government Services recover the $624,779 in overpayments from
the hospitals.

NATIONAL GOVERNMENT SERVICES COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, National Government Services said that it recouped the
outstanding overpayments totaling $624,779 from the hospitals. National Government Services’
comments are included in their entirety as the Appendix.

Based on National Government Services’ written comments, we revised our report accordingly.
6
 Although the American Medical Association’s 2004 HCPCS code book showed that code C9205 had been deleted
as of 2004, CMS notified hospitals to continue using that code for oxaliplatin for services furnished in 2004 and
2005 (68 Fed. Reg. 63398, 63488 (Nov. 7, 2003); 69 Fed. Reg. 65682, 66104 (Nov. 15, 2004)).
7
 CMS instructed hospitals to bill for oxaliplatin using HCPCS code J9263 for services furnished on or after
January 1, 2006 (70 Fed. Reg. 68516, 68632 (Nov. 10, 2005); CMS Transmittal 786, Change Request 4250
(Dec. 16, 2005)). The service unit for that code is 0.5 milligrams.


                                                         4

APPENDIX

                                                                                                           APPENDIX
                                                                                                            Page 1 of 2 





fl.,.L.National ~mment
  ~        services
    PO,,"""
   Syncwe. New York 13221446
                                                                                    Medicare
    w_~.com




   July 15, 2009

   Mr. Marc Gustafson
   Office of Audit Services
   233 North Michigan Ave
   Chicago, II. 60601

   Re: NGS Response to OIG audit A-05-09-00052 "Review of Oxaliplatin Claims p nx:esscd by National
   Government ServiC(.'S for Ca lendar Years 2004 and 2005."

   Dear Mr. Gustafson:

   This [!'!Her is in response to the draft ~port dated JUI'14!c 16, 2m9, entitled " Review of OxaJiplatin Claims
   processed by National Government Scrvi~ for Calendar Years 2004 and 2005."

   Oxaliplalil1 is a chemotherapy drug used to treat colorectal cancer. Ouring the audit period,. (calendar
   years (CY) 2004 & 20(5), Medicare required hospital outpatient departments to bill one service unit for
   every 5 milligrams of Oxaliplatin administered. During this period, Uni ted Government Services was
   the fiscal intermediary for Michigan and Wisconsin. and Adminislar FI..'<Ieral was the fisca l
   intermediary for Illinois, Indiana, and Ohio.

   During this period, a total of 33 payments were reviewed totaling snl, 372. The objective was to
   determine, for selected payments, whether the hospital billed National Government Services for the
   correct number of service units of OxaJiplatin. According to your findi ngs, 32 of the 33 payments
   fCviewed were billed with an incorrect number of service units of Oxaliplatin. The remaining payment
   was billed correctly. As a result, it was determined that these hospitals received overpayments
   totaling $644, 422 during calendar years 2004 and 2005. Thcoverpaymcnts occurred p rimarily because
   the hospitals reported the number of service units incorrectly as 0.5 milligrams measurements iru."tead
   of 5 milligrams measurCInents as stated above.

   Therefore, your recommendation is that NGS recovC!s the $644,422 in overpayments made to the
   hospitals. NGS has complied with your request to reroup these overpayment dollars from the
   hospitals; however, NGS has identified that on audit sample 15 the overpayment amount was actually
   $685 (Medicare Secondary Payer claim) as opposed to the $2tJ,338 initially reported in the sample
   documentation. As a result, this created an overpayment difference of $19,643 changing the
   recoupment amount to 5624,779.


                                                                                                  CAIS/
                                                                                         -"--·--7
                                                                                                  APPENDIX
                                                                                                   Page 2 of 2 





In addition, NGS would like to clarify that of the total 33 payments reviewed, 8 claims were submitted
as a result of a provider audit During that audit it is our understanding that 4 of these claims were
never billed by the provideri therefore, were not paid incorrectly by NGS. Therefore, of the 33 claims
sampled, 1 claim was correct, 4 were never billed origin81ly by the provider, !lnd 2B were Incorrectly
processed by NGS as a result of the provider inaccurately billing the number of service units.

As of Cfl/Ol/09, NGS has recouped the outstanding overpayments totaling $624,779 from these
providers.

You may submit any additional questions and/or concerns to the NGS Medicare m8ilboxi
ng,> .medica~ anthem.com.




Si(J~
M,. D..id  CroWley~
Staff Vice President
Claims Management

cc: Pam Glenn, Part A/RHI-ll Claims Director,
    Sandra Logan, Claims Manager
